APPENDIX

la
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH COURT
In re Grand Jury Investigation,
USAO No. 2018R01761
(Grand Jury Subpoenas To Pat Roe)
United States of America,
Plaintiff-Appellee,
v.
Doe Company,
Defendant-Appellant
v.
Pat Roe; John Doe,
Movants.
No. 19-10187
D.C. No. 3:19-xr-90017-CRB-l
United States of America,
Plaintiff-Appellee,
v.
Doe Company,
Defendant-Appellant.

2a
No. 19-10261
D.C. No. 3:19-xr-90017-CRB-l
OPINION

Appeal from the United States District Court
for the Northern District of California
Charles R. Breyer, District Judge, Presiding
Argued and Submitted November 14, 2019
San Francisco, California
Filed July 27, 2020
Before: Kim McLane Wardlaw, William A. Fletcher,
and Richard Linn,* Circuit Judges
Opinion by Judge W. Fletcher
SUMMARY**
Grand Jury Subpoenas
In two appeals arising from a federal grand jury
investigation into the acquisition of one company by
another, the panel (1) dismissed for lack of appellate
* The Honorable Richard Linn, United States Circuit Judge for
the U.S. Court of Appeals for the Federal Circuit, sitting by
designation.
** This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
jurisdiction the Doe Company’s appeal seeking review
of the district court’s order enforcing Doe Company
partner Pat Roe’s compliance with a grand jury
subpoena, and (2) affirmed the district court’s orders
enforcing the Doe Company’s compliance with a grand
jury subpoena and holding the Doe Company in
contempt for failure to produce the subpoenaed
documents in its possession.
Dismissing for lack of jurisdiction the Doe
Company’s interlocutory appeal from the enforcement
order against Roe, the panel clarified that under
Perlman v. United States, 247 U.S. 7 (1918), this court
may entertain interlocutory appeals from orders
enforcing grand jury subpoenas only when they re­
quire production of materials that are claimed to be
privileged or otherwise legally protected from
disclosure. Because the Doe Company made no such
claim, this court lacks jurisdiction under Perlman.
The panel noted that the Doe Company has not sought
a writ of mandamus and that review is unavailable
under the general collateral order doctrine.
The panel affirmed the district court’s orders
denying the Doe Company’s motions to quash a grand
jury subpoena and holding the Doe Company, which
is based outside of the United States, in contempt. The
panel held that, taken together, the district court’s
findings adequately support its determination that it
had in personam jurisdiction over the Doe Company.
The panel also held that it was fair, reasonable and
just to imply that an individual—who was identified
as the General Counsel for a firm in which the Doe
Company retained a significant ownership interest
and who stated that he could accept service for the

4a
Doe Company—had authority to receive, at a United
States address, service on behalf of the Doe Company.
COUNSEL
Richard M. Strassberg (argued), James D. Gatta, and
Elizabeth S. David, Goodwin Procter LLP, New York,
New York; Andrew Kim, Goodwin Procter LLP, Wash­
ington, D.C.; for Defendant-Appellant.
Adam A. Reeves (argued), William Frentzen, and Rob­
ert S. Leach, Assistant United States Attorneys;
Merry Jean Chan, Chief, Appellate Section, Criminal
Division; David L. Anderson, United States Attorney;
United States Attorney’s Office, San Francisco,
California; for Plaintiff-Appellee.
OPINION
W. FLETCHER, Circuit Judge.
A federal grand jury has been investigating the
acquisition of one company by another. The acquired
company, through its officers and shareholders, is
alleged to have provided fraudulently misleading
information about its true value, leading the
acquiring company to pay a substantially inflated
price. The grand jury has so far issued two indict­
ments. The grand jury issued subpoenas to a third
company, Doe Company (“the Company”), and to Pat
Roe, a former officer at the acquired company and a
current partner at the Company. The Company moved
to quash the subpoenas.1
The district court denied the Company’s motion to
quash and ordered compliance by both the Company
1 All documents and briefs in this matter have been filed under
seal. This opinion does not use the parties’ true names.

5a
and by Pat Roe. The Company has appealed that order
(No. 19-10187). The district court then ordered the
Company and Roe to show cause why they were not in
contempt. Roe responded by agreeing to produce the
documents in Roe’s possession. The Company declined
to produce the documents in its possession, and the
district court held the Company in contempt. The
Company has also appealed that order (No. 19-10261).
We consolidated the Company’s appeals and stayed
the district court’s enforcement order against Roe.
We conclude that we lack appellate jurisdiction to
review the district court’s enforcement order directed
to Roe. We dismiss that part of the appeal. We have
jurisdiction to review the district court’s enforcement
orders directed to the Company and holding the
Company in contempt. We affirm those orders.
I. Standard of Review
We review a district court’s denial of a motion to
quash a grand jury subpoena and its order of contempt
sanctions for an abuse of discretion. In re Grand Jury
Subpoena, No. 16-03-217, 875 F.3d 1179, 1183 (9th
Cir. 2017). Underlying factual findings are reviewed
for clear error. Id. “In reviewing decisions of the
district court, we may affirm on any basis supported
by the record . . . .” In re Frontier Props., Inc., 979 F.2d
1358, 1364 (9th Cir. 1992); see also Schweiker v. Ho­
gan, 457 U.S. 569, 585 n.24 (1982).
II. Enforcement Order Against Pat Roe
The Company seeks to bring an interlocutory appeal
from the part of the district court’s enforcement order
that is directed to Pat Roe. For the reasons that follow,
we do not have appellate jurisdiction.

6a
We generally have jurisdiction to review only “ap­
peals from all final decisions of the district courts.” 28
U.S.C. § 1291. Pretrial discovery orders, including
denials of motions to quash grand jury subpoenas, are
not final decisions under § 1291. United States v.
Ryan, 402 U.S. 530, 532-33 (1971). Absent certifica­
tion by the district court, a party seeking review must
either seek mandamus, or disobey the order and then
appeal the resulting contempt citation. See, e.g.,
Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100, 11012 (2009) (no appellate jurisdiction over a pretrial
discovery order seeking information claimed to be
protected by the attorney-client privilege); In re
Grand Jury Subpoena Issued to Bailin (“Bailin’’), 51
F.3d 203, 205 (9th Cir. 1995) (no appellate jurisdiction
over denial of motion to quash a subpoena until
person subpoenaed refuses to comply and is held in
contempt).
The finality requirement is not a mere formality. It
is especially important in criminal cases, where inter­
locutory appeals can impede the speedy and effective
administration of the criminal justice system. Ryan,
402 U.S. at 532-33. “The appealability of the
denial of a motion to quash is particularly inappropri­
ate in the grand jury setting.” In re Grand Jury Sub­
poena Dated June 5, 1985, 825 F.2d 231, 236 (9th Cir.
1987). A grand jury may consider an extraordinarily
broad range of evidence, and “the scope of [its]
inquiries is not to be limited narrowly.” United States
v. Calandra, 414 U.S. 338, 343 (1974); id. at 354-55
(grand jury may consider illegally obtained evidence);
Fed. R. Evid. 1101(d) (Federal Rules of Evidence gen­
erally do not apply to grand jury proceedings).
Moreover, while the subpoena awaits review, “targets

7a
are free, memories of other witnesses are fading,
evidence is disappearing, the grand jury may have
difficulty proceeding against other targets, and events
may escape scrutiny as the statute of limitations takes
its toll.” In re Klein, 776 F.2d 628, 631 (7th Cir. 1985)
A. Perlman
The Company argues that we have appellate juris­
diction over its interlocutory appeal under the socalled Perlman doctrine. See Perlman v. United
States, 247 U.S. 7 (1918). We disagree.
The Supreme Court has carved out a “narrow
exception” under Perlman for cases in which
documents sought by the grand jury are subject to a
claim of privilege. Bailin, 51 F.3d at 205. In Perlman,
the trial court ordered the clerk of court, who retained
possession of Perlman’s documents from a previous
case, to produce the documents to a grand jury
investigating Perlman. Perlman appealed, claiming
that disclosure would violate, inter alia, his Fifth
Amendment privilege against self-incrimination. The
Supreme Court allowed the appeal on the ground that
Perlman would otherwise have been “powerless to
avert the mischief of the order.” Perlman, 247 U.S. at
13. As the Court later explained, to have held
otherwise in Perlman “would have made the doctrine
of finality a means of denying Perlman any appellate
review of his constitutional claim.” Cobbledick v.
United States, 309 U.S. 323, 328-29 (1940).
“We have interpreted Perlman to mean that a dis­
covery order directed at a disinterested third-party
custodian of privileged documents is immediately
appealable because the third party, presumably lack­
ing a sufficient stake in the proceeding, would most

8a
likely produce the documents rather than submit to a
contempt citation.” United States v. Griffin, 440 F.3d
1138, 1143 (9th Cir. 2006) (internal quotation marks
omitted). Because, as in Perlman, a person seeking to
protect privileged information in the hands of a third
party cannot expect that third party to submit to a
contempt citation, that person is “powerless to avert
the mischief of the order” unless an interlocutory
appeal is available.
We have sometimes described the Perlman rule in
shorthand fashion, omitting recitation of the
requirement that the challenged order seeks
privileged documents. We have focused, instead, on
the question whether the third party to whom the
subpoena is issued would be willing to risk contempt.
See In re Optical Disk Drive Antitrust Litig., 801 F.3d
1072, 1076 (9th Cir. 2015) (“The Perlman rule has
been formulated as providing a right of immediate ap­
peal by a party aggrieved by a district court
discovery order whenever the order requires a third
party to produce evidence or documents and that third
party cannot be expected to go into contempt merely
to create a final appealable order.”); In re Grand Jury
Subpoenas Duces Tecum, 695 F.2d 363, 365 (9th Cir.
1982); cf. Church of Scientology of Cal. v. United
States, 506 U.S. 9, 18 n.ll (1992) (under Perlman, “a
discovery order directed at a disinterested third party
is treated as an immediately appealable final order”);
United States v. Amlani, 169 F.3d 1189, 1192 (9th Cir.
1999) (a third party who is a former attorney, as
distinct from a current attorney, cannot be expected
to risk a contempt citation).
Despite our abbreviated statements of the doctrine,
the rule under Perlman is that we may entertain

9a
interlocutory appeals from orders enforcing grand
jury subpoenas only when they require production of
materials that are claimed to be privileged or
otherwise legally protected from disclosure. The vast
majority of our cases applying Perlman involve orders
issued to attorneys seeking information protected by
the attorney-client privilege. Wright & Miller, 15B
Federal Practice and Procedure § 3914.23 (2d ed. 2020
update) (noting that these comprise the “largest iden­
tifiable category” of Perlman cases); see, e.g., United
States v. Krane, 625 F.3d 568, 571-72 (9th Cir. 2010).
Other cases allege other evidentiary privileges. See,
e.g., United States v. Gonzalez, 669 F.3d 974, 977 n.2
(9th Cir. 2012) (joint defense privilege); Griffin, 440
F.3d at 1143 (marital communications privilege); In re
Grand Jury Proceedings, 867 F.2d 562, 563 (9th Cir.
1989) (psychotherapist-patient privilege), abrogated
on other grounds by Jaffee v. Redmond, 518 U.S. 1
(1996). Some cases, including Perlman, involve a con­
stitutional privilege. Harris v. United States, 413 F.2d
316, 317 (9th Cir. 1969) (Fifth Amendment privilege
against self-incrimination). Finally, a few cases in­
volve some other legal claim against disclosure. See,
e.g., In re Optical Disk Drive Antitrust Litig., 801 F.3d
at 1074, 1076 (information allegedly protected under
Fed. R. Crim. P. 6(e)); In re Grand Jury Subpoena
Served on Meserve, Mumper & Hughes, 62 F.3d 1222,
1223 (9th Cir. 1995) (information protected under
court order).
The subpoenaed documents need not actually be
privileged to warrant interlocutory review. A court
may properly assume jurisdiction under Perlman
even if it later concludes on the merits that the infor­
mation is not actually privileged. See, e.g., In re Grand

10a
Jury Subpoenas Duces Tecum, 695 F.2d at 365
(reviewing
under
Perlman
but
concluding
attorney-client privilege did not protect information
on fee arrangements). The logic of Perlman permits
review in such cases, for if a document produced to the
grand jury is later held to have contained privileged
information, protection provided by. the privilege will
have been irretrievably lost.
It is uncontested in the case before us that the
information in the documents held by Pat Roe is not
privileged. The Company notes, correctly, that in
many cases we have applied Perlman without
addressing the privilege issue. The Company
therefore argues that there is no requirement that the
materials at issue be allegedly privileged for Perlman
to apply. The Company misreads our cases. Our
failure to mention a claim of privilege does not mean
that it was not a requirement. Quite the contrary. In
virtually all of our Perlman cases, there was no
dispute that the information was alleged to be
privileged, which meant that we felt no need to
discuss the requirement of a claim of privilege.
i

More importantly, the privilege requirement
explains why Perlman exists to create interlocutory
review in a context that otherwise heavily disfavors it.
A grand jury has “wide latitude to inquire into
violations of criminal law” and is “generally . . .
unrestrained” by procedural or evidentiary rules that
govern criminal trials. Calandra, 414 U.S. at 343. As
the Supreme Court has recognized, however, a claim
of privilege is one of the only non-procedural grounds
on which a subpoenaed individual may resist a grand
jury subpoena. Id. at 346. Perlman exists to protect
that limited right. It does not protect against any and

11a
all asserted “mischiefs” resulting from a grand jury
subpoena, but it does protect against the specific harm
of compelled disclosure to the grand jury of
information protected by a valid privilege. Because an
appeal after final judgment would come too late to
remedy that harm, Perlman permits immediate
review in this narrow case.
The Company invokes Perlman on the ground that
it has a “cognizable” “ownership interest” in the
documents. In the Company’s view, its ownership of
the documents gives it the right to conceal
information the documents contain. An ownership
interest, standing alone, is not a sufficient defense
against disclosing information to a grand jury, whose
proceedings are “secre[t]” and “kept from the public
eye,” Douglas Oil Co. of Cal. v. Petrol Stops Nw., 441
U.S. 211, 218 n.9 (1979); see Fed. R. Crim. P. 6, and
which considers a range of evidence “generally . . .
unrestrained by the technical procedural and
evidentiary rules governing the conduct of criminal
trials,” Calandra, 414 U.S. at 343; contrast United
States v. Hubbard, 650 F.2d 293, 311 n.67 (D.C. Cir.
1980) (reviewing claim where order sought public
disclosure of sealed information). The Company
mistakenly focuses on the “ownership interest” the
petitioner had in Perlman. That interest was relevant
only insofar as it involved the petitioner’s Fifth
Amendment privilege against self-incrimination. See
Cobbledick, 309 U.S. at 328-29. The Company makes
no such claim here.
Under the Company’s argument, any company
subject to a grand jury investigation could cite an
“ownership interest” in documents subpoenaed from
its employees, and could thereby conceal from the

12a
grand jury information that might reveal wrongdoing
by the company. Accepting the Company’s argument
would expand Perlman far beyond the “narrow excep­
tion” it created to the finality requirement. Bailin, 51
F.3d at 205; In re Grand Jury Subpoena Served Upon
Niren, 784 F.2d 939, 942 (9th Cir. 1986) (per curiam)
(“[UJntil the Supreme Court informs us that Perlman
applies to more than a limited class of cases,’ it is not
our prerogative to enlarge the exception . . . .”)
(quoting in re Sealed Case, 655 F.2d 1298, 1302 (D.C.
Cir. 1981)).
We recognize that Perlman was decided one
hundred years ago. But the Supreme Court has given
us no reason to suspect that it is no longer good law,
or that its essential contours have changed. See, e.g.,
Gravel v. United States, 408 U.S. 606, 608 n.l (1972)
(noting appeal proceeded under Perlman because
Senator intervenor could not expect third parties to
whom subpoenas were issued to protect privileges
under the Speech or Debate Clause); United States v.
Nixon, 418 U.S. 683, 691 (1974) (discussing Perlman);
Cobbledick, 309 U.S. at 328-29; see also Krane, 625
F.3d at 572-73 (holding Perlman remains good law
after Mohawk Industries, 558 U.S. 100 (2009)). Our
sister circuits generally understand Perlman as we do,
limiting it to claims of privilege. As the Eighth Circuit
has explained, “[t]he [Perlman] exception is limited to
an appeal by the privilege holder.” United States v.
Beltramea, 831 F.3d 1022, 1024 (8th Cir. 2016); see
also FDIC v. Ogden Corp., 202 F.3d 454, 459-60 (1st
Cir. 2000); United States v. Punn, 737 F.3d 1, 6 (2d
Cir. 2013); In re Naranjo, 768 F.3d 332, 344 (4th Cir.
2014); Branch v. Phillips Petroleum Co., 638 F.2d 873,
878 n.3 (5th Cir. 1981); Holt-Orsted v. City of Dickson,

13a
641 F.3d 230, 237-38 (6th Cir. 2011); United States v.
Calandra, 706 F.2d 225, 228 (7th Cir. 1983) (per cu­
riam); In re Motor Fuel Temperature Sales Practices
Litig., 641 F.3d 470, 485 (10th Cir. 2011); In re Grand
Jury Proceedings, 832 F.2d 554, 558-59 (11th Cir.
1987); In re Sealed Case, 754 F.2d 395, 399 (D.C. Cir.
1985).
Only the Third Circuit has read Perlman as
requiring only a disinterested third party, irrespective
of privilege. In In re Grand Jury (“Schmidt”), 619 F.2d
1022, 1025 (3d Cir. 1980), an employer brought an
interlocutory appeal of a denial of a motion to quash
grand jury subpoenas issued to its employees,
contending that the grand jury was being used for an
improper purpose. Id. Making no mention of privilege,
the Third Circuit held that it had jurisdiction because
Perlman permitted appeals in cases of third-party
subpoenas. Id. The Second Circuit has expressly disa­
vowed Schmidt. See In re Subpoenas to Local 478, Int’l
Union of Operating Eng’rs & Benefit Funds
(“Local 478”), 708 F.2d 65, 72-73 (2d Cir. 1983); Punn,
737 F.3d at 6 (“The mere fact... that a movant cannot
himself precipitate immediate review through a
contempt proceeding, does not end the finality in­
quiry.”). “Unlike motions to quash that seek to pre­
serve privileges of the movant against possible disclo­
sure by a third-party witness, and thereby to prevent
immediate, irreparable harm, motions that allege im­
proper use of the grand jury . . . ultimately seek to
prevent trial prejudice.” Punn, 737 F.3d at 9-10. We
agree with the Second Circuit that harms resulting
from improper purpose, unlike harms resulting from
wrongful disclosure of privileged information, can
later be addressed at trial or on appeal. See id.

14a
If we have been unclear in our prior cases in stating
that a claim of privilege is essential to a Perlman ap­
peal, we clarify today that it is. In seeking interlocu­
tory review of a court order enforcing a grand jury sub­
poena, an appellant must assert a claim of evidentiary
privilege or some other legal claim specifically protect­
ing against disclosure to the grand jury. The appellant
must claim a “right ... to secrecy of the transaction”
that can be vindicated only through interlocutory re­
view. In re Subpoena to Testify Before Grand Jury, 39
F.3d 973, 975 (9th Cir. 1994). Because the Company
makes no such claim, we do not have jurisdiction un­
der Perlman.
B. Alternate Grounds
Alternate grounds for appellate jurisdiction are not
available. The Company has not sought a writ of
mandamus under 28 U.S.C. § 1651. Mandamus is re­
served for “exceptional circumstances,” which we do
not find here. In re Nat’l Mortg. Equity Corp.
Mortg. Pool Certificates Litig., 821 F.2d 1422, 1425
(9th Cir. 1976). Finally, review is unavailable under
the general collateral order doctrine. See Mohawk
Indus., Inc., 558 U.S. at 114.
III. Enforcement Order Against the Company and
Contempt Citation
The Company appeals the district court’s orders
denying its motions to quash the subpoena and hold­
ing the Company in contempt. The Company is based
outside the United States, and the grand jury sub­
poena was served on a non-Company employee in the
United States. The Company argues that the district
court lacked in personam jurisdiction and that service

15a
of the subpoena was improper. We reject both argu­
ments.
A. In Personam Jurisdiction
The parties do not dispute that in the grand jury
subpoena context, the “reasonable probability” test
adopted by the Second and D.C. Circuits governs a
determination of in personam jurisdiction. See In re
Marc Rich & Co., A.G. (“Marc Rich”), 707 F.2d 663,
670 (2d Cir. 1983), cert, denied 463 U.S. 1215 (1983);
In re Sealed Case, 832 F.2d 1268, 1274 (D.C. Cir.
1987), abrogated on other grounds by Braswell v.
United States, 487 U.S. 99 (1988). We agree with our
sister circuits that this is the proper standard.
Under this standard, the government need only
show “that there is a reasonable probability that
ultimately it will succeed in establishing the facts
necessary for the exercise of jurisdiction” over a
nonresident alleged to have violated federal criminal
law. Marc Rich, 707 F.2d at 670. The relevant forum
is not the state in which the grand jury is empaneled
but “the entire United States,” which is itself
“injuriously affected” by the criminal offense. Id.
“Under such circumstances, . . . the occurrence of the
offense itself is sufficient to support a claim of
jurisdiction, provided adequate notice and an oppor­
tunity to be heard has been given.” Id. at 667-68.
The district court found that several people who had
profited from the sale of the acquired company used
their personal funds shortly thereafter to help found
the Company. An internal memorandum stated that
the Company’s start-up team—which included senior
officials from the acquired company whom the grand
jury has already indicted—would invest substantial

16a
amounts of their own money in the Company. A
Company employee also submitted an affidavit
stating that the Company was capitalized through eq­
uity contributions.
The
Company objects that the
internal
memorandum was a draft document that was never
implemented, and it relies on an affidavit from a
Company employee so stating. The district court
considered the record before it and found that the
affidavit did not override other evidence in the record.
We conclude that the district court did not clearly err
in so finding. In re Grand Jury Subpoena, 875 F.3d at
1183.
The district court also found that “the financial
structure of the entities at issue was enough to create
a likelihood of criminal conduct.” The government
alleges that money from the acquisition may have
been laundered through the Company, and later
laundered again through what was initially a wholly
owned subsidiary of the Company (“the Firm”). There
is evidence in the record that the Company and the
Firm at one time shared the same office in the United
States, and that there is substantial overlap between
the employees of the Company and the Firm.
We conclude that, taken together, these findings ad­
equately support the district court’s determination
that it had in personam jurisdiction over the Com­
pany.
B. Service of Process
The district court also concluded that service of
process on the Company was proper. Until a specified
month in 2018, the Company’s website listed its

17a
address as an office suite at a particular address in
the United States. Four days into the following
month, an FBI agent attempted to serve the grand
jury subpoena at this address. When at this address,
the FBI agent spoke with a particular individual,
identified as the General Counsel for the Firm, who
accepted the papers and stated that he “could accept
service for [the Company].” At that point, the
Company no longer wholly owned the Firm, but it
retained a significant ownership stake. Within a
month, counsel for the Company contacted the United
States government regarding the subpoena. The
Company objects to service of process on the ground
that the Firm is a distinct entity from the Company,
and that the General Counsel worked for the Firm
rather than the Company.
Service to a corporation “is not limited solely to
officially designated officers, managing agents, or
agents appointed by law for the receipt of process.”
Direct Mail Specialists, Inc. u. Eclat Computerized
Techs., Inc., 840 F.2d 685, 688 (9th Cir. 1988).
Instead, service can be made “upon a representative
so integrated with the organization that he will know
what to do with the papers.” Id. (quoting Top Form
Mills, Inc. u. Sociedad Nationale Industria
Applicazioni Viscosa, 428 F. Supp. 1237, 1251
(S.D.N.Y. 1977)). “Generally, service is sufficient
when made upon an individual who stands in such a
position as to render it fair, reasonable and just to im­
ply the authority on his part to receive service.” Id.
(same).
The General Counsel for the Firm was a representa­
tive “so integrated with the [Company] that he [knew]
what to do with the papers.” He confirmed to the FBI

18a
agent that he could receive process on behalf of the
Company, and the Company’s counsel contacted the
government about the papers shortly thereafter. See
id. (“[Ajctual receipt of process by the correct person
may be a factor in finding process valid when there
are other factors that make process fair.”); Henderson
v. United States, 517 U.S. 654, 672 (1996) (“[T]he core
function of service is to supply notice of the pendency
of a legal action . . . .”). Under these circumstances, it
is “fair, reasonable and just to imply the authority” of
the General Counsel to receive service on behalf of the
Company.
Conclusion
We dismiss for want of appellate jurisdiction the
Company’s appeal seeking review of the district
court’s enforcement order against Pat Roe. We affirm
the district court’s enforcement order and contempt ci­
tation against the Company.
DISMISSED in part; AFFIRMED in part.

APPENDIX B
District Court Order Granting
Contempt Motion (N.D. Cal. July 26, 2019)
19a-20a
FILED UNDER SEAL

APPENDIX C
District Court Order Denying Motion to Quash
(N.D. Cal. May 14, 2019)
21a-23a
FILED UNDER SEAL

APPENDIX D
District Court Order Granting
Motion to Compel Compliance
(N.D. Cal. April 18, 2019)
24a-67a
FILED UNDER SEAL

68a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH COURT
In re Grand Jury Investigation,
USAO NO. 2018R01761
(Grand Jury Subpoenas To Pat Roe)
United States of America,
Plaintiff-Appellee,
v.
Doe Company,
Defendant-Appellant,
v.
Pat Roe; John Doe,
Movants.
No. 19-10187
D.C. No. 3:19-xr-90017-CRB-l
United States of America,
Plaintiff-Appellee,
v.
Doe Company,
Defendant-Appellant.

69a
No. 19-10261
D.C. No. 3:19-xr-90017-CRB-l
Filed: September 2, 2020
ORDER
Before: WARDLAW, W. FLETCHER, and LINN,*
Circuit Judges.
Defendant-Appellant filed a petition for rehearing
or rehearing en banc on August 10, 2020. The panel
has voted to deny the petition for rehearing. Judges
W. Fletcher and Wardlaw have voted to deny the pe­
tition for rehearing en banc, and Judge Linn so recom­
mends.
The full court has been advised of the petition for
rehearing en banc and no judge of the court has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing or rehearing en banc is
DENIED.

The Honorable Richard Linn, United States Circuit
Judge for the U.S. Court of Appeals for the Federal Circuit,
sitting by designation.

